No. 20A98

In the

Supreme Court of the United States
MIKE KELLY, U.S. Congressman; SEAN PARNELL; THOMAS A. FRANK;
NANCY KIERZEK; DEREK MAGEE; ROBIN SAUTER; MICHAEL KINCAID;
and WANDA LOGAN,
Applicants,
v.
COMMONWEALTH OF PENNSYLVANIA; PENNSYLVANIA GENERAL
ASSEMBLY; THOMAS W. WOLF, in his official capacity as Governor of the
Commonwealth of Pennsylvania; and KATHY BOOCKVAR, in her official capacity
as Secretary of the Commonwealth of Pennsylvania,
Respondents.

REPLY BRIEF IN SUPPORT OF EMERGENCY APPLICATION FOR WRIT
OF INJUNCTION PENDING THE FILING AND DISPOSITION OF A
PETITION FOR A WRIT OF CERTIORARI
To the Honorable Samuel A. Alito, Jr., Associate Justice of the Supreme Court of
the United States and Circuit Justice for the Third Circuit

December 8, 2020

Gregory H. Teufel
Counsel of Record
OGC Law, LLC
1575 McFarland Rd.
Suite 201
Pittsburgh, PA 15216
Telephone: (412) 253-4622
Email: gteufel@ogclaw.net
Counsel for Applicants/Petitioners

TABLE OF CONTENTS
TABLE OF AUTHORITIES ....................................................................................... ii
ARGUMENT ................................................................................................................1
SUPPLEMENTAL APPENDIX
MOTION FOR EMERGENCY/SPECIAL PROHIBITORY
INJUNCTION ..................................................................................... S. APP. 1
MEMORANDUM OF LAW IN SUPPORT OF MOTION FOR
EMERGENCY/SPECIAL PROHIBITORY INJUNCTION ............. S. APP. 11
RESPONSE TO APPLICATION FOR THE COURT TO EXERCISE
EXTRAORDINARY JURISDICTION .............................................. S. APP. 58

TABLE OF AUTHORITES
CASES

PAGE(S)

Kauffman v. Osser,
441 Pa. 150, 271 A.2d 236 (1970) ................................................................................ 1
Reynolds v. Sims
377 U.S. 533 (1964) ...................................................................................................... 2
Shankey v. Staisey
436 Pa. 65, 257 A.2d 897 (1970), cert denied 396 U.S. 1038 (1970) .......................... 1
Smiley v. Holm,
285 U.S. 355 (1932) ...................................................................................................... 1
Winston v. Moore,
244 Pa. 447, 91 A. 520 (1914) ...................................................................................... 1
CONSTITUTIONAL PROVISIONS
U.S. Const. Art. I, § 4................................................................................................... 1
U.S. Const. Art. II, § 1 ................................................................................................. 1
LEGISLATIVE MATERIALS
Act of October 31, 2019, P.L. 552, No. 77 ................................................................... 2

ii

To the Honorable Samuel A. Alito, Jr., Associate Justice of the Supreme
Court of the United States and Circuit Justice for the Third Circuit
Applicants (“Petitioners”) respectfully submit this Reply Brief in support of
their Emergency Application for Writ of Injunction Pending the Filing and
Disposition of a Petition for Writ of Certiorari (“the Application”), to correct a
misstatement of the record below in the Opposition of Respondents, the
Commonwealth of Pennsylvania, Governor Thomas W. Wolf, and Secretary of the
Commonwealth Kathy Boockvar (collectively “the Executive-Respondents”) to the
Application (“the Opposition”).
Respondents assert, incorrectly, that the first question presented in the
Application was neither pressed nor passed upon below. See Opposition pp. 10-12.
Petitioners, in both (1) their Memorandum of Law in Support of Motion for
Emergency/Special Prohibitory Injunction (“the Motion”), filed in the Commonwealth
Court of Pennsylvania and (2) their Response to Application for the Court to Exercise
Extraordinary Jurisdiction argued as follows:
Article I, Section 4 and Article II, Section 1 of the U.S. Constitution
grant plenary authority to state legislatures to enact laws that govern
the conduct of elections. Yet, while the “legislature may enact laws
governing the conduct of elections[,]... ‘no legislative enactment may
contravene the requirements of the Pennsylvania or United States
Constitutions.’” Kauffmaun v. Osser, 441 Pa. 150, 157-58 (1970) (Cohen,
J. dissenting) (citing Winston v. Moore, 244 Pa. 447, 91 A. 520 (1914),
and quoting Shankey v. Staisey, 436 Pa. 65, 68-69[, 257 A.2d 897 (1970)],
cert denied 396 U.S. 1038 (1970)); see also, e.g., Smiley v. Holm, 285 U.S.
355, 369 (noting that state Legislatures are constrained by restrictions
imposed by state constitutions on their exercise of the lawmaking power,
even when enacting election laws pursuant to U.S. Constitutional
authority).

S. App. pp. 38-39; 86-87. One need not search for arguments “lurking somewhere in
the penumbra” of Petitioners’ briefs, as is inaccurately suggested by the ExecutiveRespondents in the Opposition.
While not expressly passing on that specific argument, the Commonwealth
Court held, in granting the Motion, that Petitioners demonstrated a likelihood of
success on the merits (see App. pp.10-11). The Commonwealth Court also noted that
the case involved “not only this provision of the Pennsylvania Constitution but also
to the ‘one person, one vote’ doctrine established by Reynolds [v. Sims, 377 U.S. 533,
555 (1964)], one of the bedrock decisions of the U.S. Supreme Court.” App. p.27, n.5.
While the Petition filed in the Commonwealth Court of Pennsylvania did not
expressly reference the Electors and Elections Clauses, and only specifically
identified the ways that Act 77 (Laws of the General Assembly of the Commonwealth
of Pennsylvania, Act of October 31, 2019, P.L. 552, No. 77 (“Act 77”)) contradicted the
Pennsylvania Constitution, it generically referenced that Petitioners were seeking a
declaration

that

the

universal

mail-in

ballot

provisions

of

Act

77

are

“unconstitutional” and noted the “lack of constitutional authority to pass a universal
mail-in voting scheme” and “constitutional constraints.” See App. pp. 33, 43, 54 at ¶¶
1, 33-35, 84. In addition, in Petitioners’ Emergency Application for Stay of Court’s
Order of November 28, 2020, Petitioners raised all of the same legal arguments and
issues presented to this Court, giving the Pennsylvania Supreme Court an
opportunity to reconsider its Order Granting Application for Extraordinary
Jurisdiction, Vacating Commonwealth Court’s Order, and Dismissing Petition for

2

Review with Prejudice. See App. pp. 68-106. Accordingly, Petitioners’ federal
constitutional claims were pressed below and, to the extent not passed upon, that was
only because Petitioners were denied a meaningful opportunity to be heard.
CONCLUSION
For the foregoing reasons, and the reasons stated in Petitioners’ Emergency
Application for Writ of Injunction Pending the Filing and Disposition of a Petition for
Writ of Certiorari, this Court should grant Petitioners’ request for an emergency writ
of injunction (or alternatively a stay of lower proceedings), grant certiorari on the
questions presented therein, treat the Application papers as a merits briefing, and
issue a merits decision as soon as practicable.
Respectfully submitted,
/s/ Gregory H. Teufel
Gregory H. Teufel
Counsel of Record
OGC Law, LLC
1575 McFarland Rd.
Suite 201
Pittsburgh, PA 15216
Telephone: (412) 253-4622
Email: gteufel@ogclaw.net
Counsel for Applicants/Petitioners

3

S. APP. 000001

S. APP. 000002

S. APP. 000003

S. APP. 000004

S. APP. 000005

S. APP. 000006

S. APP. 000007

S. APP. 000008

S. APP. 000009

S. APP. 000010

S. APP. 000011

S. APP. 000012

S. APP. 000013

S. APP. 000014

S. APP. 000015

S. APP. 000016

S. APP. 000017

S. APP. 000018

S. APP. 000019

S. APP. 000020

S. APP. 000021

S. APP. 000022

S. APP. 000023

S. APP. 000024

S. APP. 000025

S. APP. 000026

S. APP. 000027

S. APP. 000028

S. APP. 000029

S. APP. 000030

S. APP. 000031

S. APP. 000032

S. APP. 000033

S. APP. 000034

S. APP. 000035

S. APP. 000036

S. APP. 000037

S. APP. 000038

S. APP. 000039

S. APP. 000040

S. APP. 000041

S. APP. 000042

S. APP. 000043

S. APP. 000044

S. APP. 000045

S. APP. 000046

S. APP. 000047

S. APP. 000048

S. APP. 000049

S. APP. 000050

S. APP. 000051

S. APP. 000052

S. APP. 000053

S. APP. 000054

S. APP. 000055

S. APP. 000056

S. APP. 000057

IN THE SUPREME COURT OF PENNSYLVANIA
THE HONORABLE MIKE KELLY,
SEAN PARNELL, THOMAS A.
FRANK, NANCY KIERZEK,
DEREK MAGEE, ROBIN SAUTER,
MICHAEL KINCAID, and WANDA
LOGAN,

Docket No. 68 MAP 2020
RESPONSE TO APPLICATION
FOR THE COURT TO EXERCISE
EXTRAORDINARY
JURISDICTION

Filed on behalf of Petitioners,
The Honorable Mike Kelly, Sean
Parnell, Thomas A. Frank, Nancy
v.
Kierzek, Derek Magee, Robin
Sauter, Michael Kincaid, and
COMMONWEALTH OF
PENNSYLVANIA, PENNSYLVANIA Wanda Logan
GENERAL ASSEMBLY,
HONORABLE THOMAS W. WOLF, Counsel of Record for Petitioners:
and KATHY BOOCKVAR,
Gregory H. Teufel
Pa. Id. No. 73062
Respondents.
OGC Law, LLC
1575 McFarland Road, Suite 201
Pittsburgh, PA 15228
412-253-4622
412-253-4623 (facsimile)
gteufel@ogclaw.net
Petitioners,

S. APP. 000058

INTRODUCTION
Act 77 (Act of October 31, 2019, P.L. 552, No. 77 (“Act 77”)), the
most expansive and fundamental change to the Pennsylvania election code
to date, is unconstitutional. Under Act 77’s no excuse mail-in ballot
scheme, any and all qualified electors are eligible to vote by mail, with no
justification required. Beginning with the Military Absentee Ballot Act of
1839, this Court has consistently rejected attempts to expand mail-in voting
by statute – uniformly holding that a constitutional amendment is required
to expand mail-in voting. Act 77 is the Commonwealth’s latest attempt to
override the protective limitations on absentee voting proscribed by
Pennsylvania’s Constitution, as interpreted by this Court over the last one
hundred and eighty-one years. This Court should not deviate from the clear
and predictable standard that it has established.
This Court’s decisions regarding Article VII of the Pennsylvania
Constitution make clear that there are two, and only two, constitutionally
permissible mechanisms by which an elector may cast a ballot : 1) offering
your ballot in propria persona at the polling place on election day; and 2)
exceptions to the first method limited to those persons qualifying under the
absentee voting provision in Article VII, § 14 of the Pennsylvania
Constitution.

S. APP. 000059

As with prior attempts to illegally expand mail-in voting by statute,
which have been struck down by this Court going as far back as the Military
Absentee Ballot Act of 1839, Act 77 is another illegal attempt to override
the limitations on absentee voting without first following the necessary
procedure to amend the Pennsylvania Constitution. Respondents have at
least begun the steps necessary to certify the results of the November 3,
2020, General Elections (“the General Elections”), which was undertaken
pursuant to an unconstitutional, universal, no-excuse mail-in voting
scheme. Absent intervention by this Court, Respondents will complete the
process of certifying the results of an election conducted in a manner which
this Court has repeatedly rejected.
The Commonwealth Court wisely began to intervene with preliminary
injunctive relief in order to prevent irreparable injury from the resulting
wrongs of an election conducted pursuant to an unconstitutional and invalid
mail-in voting scheme. This Court or the Commonwealth Court should
make that relief permanent and strike down Act 77 as unconstitutional.
Petitioners do not oppose the application of the Commonwealth of
Pennsylvania, Governor Thomas W. Wolf, and Secretary of the
Commonwealth Kathy Boockvar (“the Executive-Respondents”) for this
Court to exercise extraordinary jurisdiction, should the Court find it
2

S. APP. 000060

appropriate. Regardless of the procedural posture, for the reasons stated
herein, Petitioners urge this Court to either grant the relief Petitioners
requested, or such other or further relief as this Court may deem proper, or
allow the Commonwealth Court to do so.
PROCEDURAL HISTORY
The procedural history set forth in Petitioners’ Response to
Jurisdictional Statement in incorporated by reference as if fully set forth
herein.
MATERIAL FACTS
I.

Background
In 2019, the Pennsylvania legislature desired to implement no-excuse

mail-in voting and initiated the process of proposing an amendment to the
Pennsylvania Constitution to allow for no excuse mail-in voting. Petition ¶
28. Pursuant to the Pennsylvania Constitution, Article XI, §1, an
amendment to the Constitution must be approved by a majority of the
members of both the Senate and House of Representatives in two separate
legislative sessions, then submitted as a ballot question to be voted on by
the electors. If, after approval by two legislative sessions, a majority of the
electors then vote to approve the proposed constitutional amendment, only
then will the amendment take effect.
3

S. APP. 000061

The proposed constitutional amendment initiated by the legislature
have been approved by a majority vote of both the House and Senate in
two consecutive legislative sessions, nor has either been submitted to the
qualified electors as a ballot question and approved by a majority vote of
the citizens. Petition ¶ 32. The legislature proceeded to implement Act 77
anyway, in direct contravention of the Pennsylvania Constitution. Petition ¶
33.
II.

The In-Progress Efforts to Amend the Pennsylvania Constitution
to Allow No Excuse Absentee Voting
In 2019, the Pennsylvania General Assembly began the process for

amending Article VII, § 14 of the Pennsylvania Constitution in order to
drastically expand absentee voting – permitting all voters to do so without
an excuse. Senate Bill 411, 2019 (later incorporated into Senate Bill 413).
Petition ¶ 36. The legislative history of the proposed amendment
recognizes that “Pennsylvania’s current Constitution restricts voters
wanting to vote by absentee ballot to [specific] situations…” Senator Mike
Folmer, et al., Senate Co-Sponsorship Memoranda (Jan. 29, 2019, 10:46
AM),
https://www.legis.state.pa.us/cfdocs/Legis/CSM/showMemoPublic.cfm?cha
mber=S&SPick=20190&cosponId=28056. Petition ¶ 37. The amendment
proposes to “eliminate these limitations, empowering voters to request and
4

S. APP. 000062

submit absentee ballots for any reason – allowing them to vote early and by
mail.” Id.
Introduced on March 19, 2019, S.B. 413 as originally filed was a joint
resolution proposing an amendment to the Pennsylvania Constitution
related to judicial retention elections and contained nothing related to the
constitution’s absentee voting provision. Petition ¶ 38. The Senate passed
the bill on October 22, 2019 and it was sent to the House where it was
referred to the House Committee on State Government a few days later.
Petition ¶ 39. On April 6, 2020, S.B. 413 was reported as amended from
committee. Petition ¶ 40. S.B. 413’s caption was changed from the
introduced version which read: “A Joint Resolution proposing separate and
distinct amendments to the Constitution of the Commonwealth of
Pennsylvania, further providing for tenure of justices, judges and justices of
the peace,” to “A Joint Resolution proposing separate and distinct
amendments to the Constitution of the Commonwealth of Pennsylvania,
further providing for tenure of justices, judges and justices of the peace;
and further providing for absentee voting.” (emphasis added). Petition ¶
41.
In its amended form with the added provisions seeking to amend the
Pennsylvania Constitution’s absentee voting restrictions, S.B. 413 was
5

S. APP. 000063

passed by a majority of both Houses and filed with the Office of the
Secretary of the Commonwealth on April 29, 2020. Petition ¶ 42. S.B. 413
will need to be passed by a majority vote in both the Senate and House of
Representatives in the next legislative session and then appear on the
November 2021 general election ballot to be approved by a majority of the
electors in order to be ratified and properly approved pursuant to the
established procedures set forth in the Pennsylvania Constitution. If
properly approved and ratified by a majority of voters in 2021, S.B. 413 will
amend Article VII, § 14 in part as follows:
(a) The Legislature shall, by general law, provide a manner
in which, and the time and place at which, qualified electors
who may, on the occurrence of any election, be absent
from the municipality of their residence, because their
duties, occupation or business require them to be
elsewhere or who, on the occurrence of any election, are
unable to attend at their proper polling places because of
illness or physical disability or who will not attend a polling
place because of the observance of a religious holiday or
who cannot vote because of election day duties, in the case
of a county employee, may vote, and for the return and
canvass of their votes in the election district in which they
respectively reside. A law under this subsection may not
require a qualified elector to physically appear at a
designated polling place on the day of the election.
Petition ¶ 44.
The General Assembly later went on to establish a “Select Committee
on Election Integrity” to “investigate, review and make recommendations
6

S. APP. 000064

concerning the regulation and conduct of the 2020 general election.” Pa. H.
Res. No. 1032, Printer’s No. 4432, Session of 2020 (Sep. 28, 2020),
https://www.legis.state.pa.us/CFDOCS/Legis/PN/Public/btCheck.cfm?txtTy
pe=PDF&sessYr=2019&sessInd=0&billBody=H&billTyp=R&billNbr=1032&p
n=4432. Petition ¶ 45. The resolution establishing the committee noted that
the “Commonwealth has traditionally only allowed absentee voting by
individuals with a statutorily defined excuse to do so, such as a physical
disability or absence from their municipality on election day.” Id. It further
notes that “[b]efore the enactment of Act 77 of 2019, for an individual to
vote absentee in this Commonwealth, the individual must have provided a
permissible reason to do so….” Id. It is expressly acknowledged that Act 77
of 2019, “created a new category of mail-in voting … [whereby] mail-in
voters do not have to provide a customary reason to vote by mail and are
able to return their ballots several days later than had traditionally been
allowed.” Id.
Article XI, § 1 of the Constitution of Pennsylvania requires
amendments to be passed by majority vote in both the House and Senate
in two separate legislative sessions and submitted as a ballot question
during the general election to be voted on by the qualified voters. Pa.
Const. Art. XI, § 1. Only if a majority of the qualified voters vote to approve
7

S. APP. 000065

the proposed constitutional amendment is the proposed constitutional
amendment ratified and legally effective. See Pa. Const., Art. XI, §1.
The Pennsylvania Constitution also expressly provides for emergency
amendments. See Pa. Const., Art. XI, § 1; see also Act 12, Act of Mar. 27,
2020, § 1, P.L. No. 41, No. 12, at § 16. The Legislature neglected this
lawful mechanism entirely and instead attempted to bypass amending the
Pennsylvania Constitution by fundamentally overhauling Commonwealth’s
voting system through the enactment of a general law.
III.

Act 77 of 2019
On October 31, 2019, Governor Wolf signed Act 77 of 2019 into law,

which implemented sweeping reforms to the elections process in
Pennsylvania. Petition ¶ 54. Among other changes, Act 77 “create[ed] a
new option to vote by mail without providing an excuse”; allowed voters to
request and submit mail-in or absentee ballots up to 50 days before an
election; and established a semi-permanent mail-in and absentee ballot
voter list. See, e.g., Press Release, Governor Wolf Signs Historic Election
Reform Bill Including New Mail-in Voting, Governor Tom Wolf (Oct. 31,
2019). Petition ¶ 55. In passing Act 77 without first amending the
Pennsylvania Constitution, Respondents disenfranchised the entire
Pennsylvania electorate, who were entitled to a constitutionally mandated
8

S. APP. 000066

vote on whether to make this sweeping change to widespread no excuse
mail-in voting before it was implemented.
IV.

The November 3, 2020 General Elections
Voting at the Pennsylvania General Elections was held on November

3, 2020. Petition ¶ 61. The General Elections were administered by
Pennsylvania election officials pursuant to Act 77, which included allowing
for universal, no-excuse mail-in ballots to be filled out, collected and
counted, in violation of the Pennsylvania Constitution. Petition ¶ 62. The
process of certifying the returns and results of the General Elections is
currently underway. Petition ¶ 63.
SCOPE AND STANDARD OF REVIEW
The Executive-Respondents Application for the Court to Exercise
Extraordinary Jurisdiction (“the Application”) seeks to have this Court
reverse the November 25 Order of the Commonwealth Court and sustain
the Preliminary Objections of the Respondents. The standard of review of
the grant or denial of a preliminary injunction is whether the trial court
abused its discretion or committed an error of law. See Buffalo Twp. V.
Jones, 813 A.2d 659 n. 4 (Pa. 2002). In considering preliminary objections,
this Court must consider as true all well-pleaded material facts set forth in
the petitioner's petition and all reasonable inferences that may be drawn
9

S. APP. 000067

from those facts. Mulholland v. Pittsburgh National Bank, 174 A.2d 861,
863 (Pa. 1961). Preliminary objections should be sustained only in cases
clear and free from doubt that the facts pleaded are legally insufficient to
establish a right to relief. Werner v. Zazyczny, 681 A.2d 1331 (Pa. 1996).
COUNTERSTATEMENT OF QUESTIONS INVOLVED
1. Should the Court assume immediate jurisdiction over this action
pursuant to its Extraordinary Jurisdiction?
Suggested answer: Petitioners do not oppose this.
2. Are Petitioners entitled to injunctive relief?
Suggested answer: Yes.
3. Should the relief requested in the Petition be granted?
Suggested answer: Yes.
ARGUMENT
I.

The Executive-Respondents’ Preliminary Objection 1 should be
overruled because Petitioners have standing.
Preliminary Objection 1 should be overruled because Petitioners

have standing. In general, to have standing, a party must have an interest
in the controversy that is distinguishable from the interest shared by other
citizens that is substantial, direct and immediate. Sprague v. Casey, 550
A.2d 184, 187 (Pa. 1988). In this case, each Petitioner has such an interest
in the controversy.
10

S. APP. 000068

Petitioner Sean Parnell is an adult individual who is a registered
qualified elector residing in Allegheny County, and a candidate for U.S.
Representative for the 17th Congressional District of Pennsylvania, which
includes all of Beaver County, and parts of Butler and Allegheny counties.
Mr. Parnell constitutes both a “candidate” and a “qualified elector” as those
terms are defined in Election Code § 102(a) and (t), 25 Pa.Stat. § 2602(a)
& (t). Mr. Parnell brings this suit in his capacity as a candidate for federal
office and a private citizen. Petition ¶ 3. It was not alleged in the Petition,
but could easily be alleged in an amended Petition 1 or be found through
judicial notice based on public election results that, if Respondents are
permitted to certify the results of the November 3, 2020 General Elections
including mail-in ballots that do not meet the Pennsylvania Constitutional
requirements, then Mr. Parnell’s opponent will be certified as the winner of
his congressional race, but if only the constitutionally permitted ballots are
included in the certification, the Mr. Parnell would have the most votes of
any candidate in his congressional race.

1

It is not clear how to go about amending a Petition for Review in this
unusual procedural context. Petitioners hereby request leave to amend
their Petition for Review to add the additional allegations described in this
Section I of the Argument, and also request leave to join the presidential
electors as parties to this action, to the extent they have been selected and
they are now necessary parties in order to enjoin Respondents’
unconstitutional actions from completion.
11

S. APP. 000069

Petitioner Wanda Logan is a registered qualified elector residing
Philadelphia County, Pennsylvania and a candidate for the Pennsylvania
House of Representatives for the 190th district. Ms. Logan constitutes both
a “candidate” and a “qualified elector” as those terms are defined in
Election Code § 102(a) and (t), 25 Pa.Stat. § 2602(a) & (t). Ms. Logan
brings this suit in her capacity as a candidate for state office and a private
citizen. Petition ¶ 4. It was not alleged in the Petition, but could easily be
alleged in an amended Petition or be found through judicial notice based on
public election results that, if Respondents are permitted to certify the
results of the November 3, 2020 General Elections including mail-in ballots
that do not meet the Pennsylvania Constitutional requirements, then Ms.
Logan’s opponent will be certified as the winner of her Pennsylvania House
race, but if only the constitutionally permitted ballots are included in the
certification, the Ms. Logan would have the most votes of any candidate in
her race.
Petitioner the Honorable Mike Kelly (hereinafter “Representative
Kelly”) is a qualified registered elector residing in Butler County and the
United States Representative for the 16th Congressional District of
Pennsylvania. Representative Kelly was recently re-elected to represent
the 16th Congressional District, which includes all of Erie, Crawford,
12

S. APP. 000070

Mercer, and Lawrence counties, as well as part of Butler County.
Representative Kelly constitutes both a “candidate” and a “qualified elector”
as those terms are defined in Election Code § 102(a) and (t), 25 Pa.Stat. §
2602(a) & (t). Representative Kelly brings this suit in his capacity as a
candidate for federal office and a private citizen. Petition ¶ 2. It was not
alleged in the Petition, but could easily be alleged in an amended Petition
that, if Respondents are permitted to certify the results of the November 3,
2020 General Elections including mail-in ballots that do not meet the
Pennsylvania Constitutional requirements, then one or more candidates for
whom Representative Kelly voted would lose their races, but if only the
constitutionally permitted ballots are included in the certification, then more
of the candidates for whom Representative Kelly voted would have the
most votes of any candidate in their races.
Petitioners Thomas A. Frank, Nancy Kierzek, Derek Magee, Robin
Sauter and Michael Kincaid are all registered qualified electors residing in
Erie, Mercer, and Allegheny Counties, Pennsylvania. All of them are
“qualified electors” as that term is defined in Election Code § 102(t), 25
Pa.Stat. § 2602(t). All of them bring this suit in their capacities as a private
citizens. Petition ¶ 5-9. It was not alleged in the Petition, but could easily be
alleged in an amended Petition that, if Respondents are permitted to certify
13

S. APP. 000071

the results of the November 3, 2020 General Elections including mail-in
ballots that do not meet the Pennsylvania Constitutional requirements, then
candidates for whom they voted would lose their races, but if only the
constitutionally permitted ballots are included in the certification, then more
of the candidates for whom they voted would have the most votes of any
candidate in their races.
Accordingly, all of the Petitioners have substantial, direct and
immediate interests in whether Respondents are permitted to certify the
results of the November 3, 2020 General Elections including mail-in ballots
that do not meet the Pennsylvania Constitutional requirements and those
interests are distinguishable from the interests shared by other citizens.
Therefore, Petitioners meet the normal standing criteria.
Moreover, although to have standing a party must ordinarily have an
interest in the controversy that is distinguishable from the interest shared
by other citizens that is substantial, direct and immediate, there are certain
cases that warrant the grant of standing even where the interest at issue
“arguably is not substantial, direct and immediate.” Sprague v. Casey, 550
A.2d 184, 187 (Pa. 1988) (citing, inter alia, Application of Biester, 409 A.2d
848, 852 (Pa. 1979)). “[A]lthough many reasons have been advanced for
granting standing to taxpayers, the fundamental reason for granting
14

S. APP. 000072

standing is simply that otherwise a large body of governmental activity
would be unchallenged in the courts.” Biester, 409 A.2d at 852 (citation
omitted).
The Biester Court elaborated on the benefit of granting standing
under such circumstances, holding that:
The ultimate basis for granting standing to taxpayers must be
sought outside the normal language of the courts. Taxpayers'
litigation seems designed to enable a large body of the citizenry
to challenge governmental action which would otherwise go
unchallenged in the courts because of the standing
requirement.... Such litigation allows the courts, within the
framework of traditional notions of ‘standing,’ to add to the
controls over public officials inherent in the elective process the
judicial scrutiny of the statutory and constitutional validity of
their acts.
Biester, 487 Pa. at 443 n.5 (citation omitted); see also Consumer Party of
Pennsylvania v. Commonwealth, 507 A.2d 323, 328 (Pa. 1986) (same).
Other factors to be considered include that issues are likely to escape
judicial review when those directly and immediately affected are actually
beneficially as opposed to adversely affected; the appropriateness of
judicial relief; the availability of redress through other channels; and the
existence of other persons better situated to assert claims, for example.
Sprague, 550 A.2d at 187 (citations omitted).
In Sprague, the petitioner challenged placing one seat on the
Supreme Court and one on the Superior Court on the general election
15

S. APP. 000073

ballot. Id. at 186. An election to fill Supreme Court and Superior Court
offices may not be placed on the ballot during a general election because
the Pennsylvania Constitution mandated that all judicial officers were to be
elected at the municipal election next proceeding the commencement of
their respective terms. Id. at 186. Under those circumstances, the Court
specifically held that if standing were not granted, “the election would
otherwise go unchallenged,” that “[j]udicial relief is appropriate because the
determination of the constitutionality of the election is a function of the
courts,” and that “redress through other channels is unavailable.” Id. (citing
Zemprelli v. Daniels, 496 Pa. 247, 436 A.2d 1165 (1981); and Hertz
Drivurself Stations, Inc. v. Siggins, 359 Pa. 25, 58 A.2d 464 (1948)).
Here, as in Sprague, if standing were not granted, the November 3,
2020, General Election would otherwise go unchallenged; redress through
other channels is unavailable because those directly and immediately
affected are actually beneficially as opposed to adversely affected; and the
only persons better situated to assert the claims at issue are possibly the
Respondents, who did not choose to institute legal action. Determination of
the constitutionality of the election remains a function of the courts and
granting standing would add judicial scrutiny of the statutory and

16

S. APP. 000074

constitutional validity of the acts of public officials to the controls over public
officials inherent in the elective process.
The case of In re Gen. Election 2014 Kauffman, 111 A.3d 785 (Pa.
Commw. Ct. 2015) is distinct from the case at bar. In that case, the
Commonwealth Court quashed an appeal of objectors who challenged an
order granting an emergency application for absentee ballots because the
objectors were not parties in the proceedings before the trial court and,
thus, did not have standing. Id. The objectors claimed they had standing
because they were registered voters in the relevant area and they had an
interest in seeing that the Election Code was obeyed and that absentee
ballots were prevented from affecting the outcome of the election. Id. at
792. The election at issue had not yet occurred and it was speculative for
the objectors to suggest that five absentee ballots might affect the outcome
of the election. Id. at 793. Quoting Kauffman v. Osser, 271 A.2d 236 (Pa.
1970), the Commonwealth Court highlighted “assumption” in the following:
Basic in appellants’ position is the assumption that those who
obtain absentee ballots, by virtue of statutory provisions which
they deem invalid, will vote for candidates at the November
election other than those for whom the appellants will vote and
thus will cause a dilution of appellants’ votes. This assumption,
unsupported factually, is unwarranted and cannot afford a
sound basis upon which to afford appellants a standing to
maintain this action.
In re Gen. Election 2014 Kauffman, 111 A.3d. at 793.
17

S. APP. 000075

Unlike in that case, here Petitioners have already been affected by
the allowance of mail-in ballots that do not meet the Pennsylvania
Constitutional requirements or will be if those ballots are included in the
certified results. The harms they allege are not based on speculation or
assumption. Accordingly, this Court should determine that the Petitioners
have standing to maintain this action and overrule Preliminary Objection 1.
II.

The Executive-Respondents’ Preliminary Objection 2 should be
overruled because statutes cannot limit the time within which
their constitutionality can be challenged.
The Executive-Respondents’ Preliminary Objection 2 should be

overruled because statutes cannot limit the time within which their
constitutionality can be challenged. The suggestion that Petitioners would
ever be precluded from challenging the constitutionality of a statute
because of a provision included in that statute would be an interpretation
that is both “absurd,” 1 Pa.Cons.Stat. § 1922(1), and violative of “the
Constitution of the United States [and] this Commonwealth”. Id. § 1922(3).
As noted in William Penn School District v. Pa. Dep’t of Ed., 170 A.2d 412,
418 (Pa. 2017):
It is settled beyond peradventure that constitutional promises
must be kept. Since Marbury v. Madison, 5 U.S. 137, 1 Cranch
137, 2 L.Ed. 60 (1803), it has been well-established that the
separation of powers in our tripartite system of government
typically depends upon judicial review to check acts or
omissions by the other branches in derogation of constitutional
18

S. APP. 000076

requirements. That same separation sometimes demands that
courts leave matters exclusively to the political branches.
Nonetheless, “[t]he idea that any legislature ... can
conclusively determine for the people and for the courts
that what it enacts in the form of law, or what it authorizes
its agents to do, is consistent with the fundamental law, is
in opposition to the theory of our institutions.” Smyth v.
Ames, 169 U.S. 466, 527, 18 S.Ct. 418, 42 L.Ed. 819 (1898).
(emphasis added); see also Robinson Twp., Wash. Cty. v. Commonwealth,
83 A.3d 901, 927 (Pa. 2013) (“[I]t is the province of the Judiciary to
determine whether the Constitution or laws of the Commonwealth require
or prohibit the performance of certain acts.”). While consistent with and
pursuant to the Pennsylvania Constitution the Legislature can set the
jurisdiction of the court, it has no authority to limit the window of time in
which the constitutionality of a law can be challenged.
Section 13 of Act 77 would also be invalidated by future amendments
to the Pennsylvania Election Code, such as occurred with Act 12 of 2020.
See Act of Mar. 27, 2020, § 1, P.L. No. 41, No. 12 (hereinafter “Act 12”).
Act 12, inter alia, amended § 1302, which is noted in Act 77 as being
subject to the 180-day exclusive jurisdiction period. Respondent’s reading
of § 13 of Act 77 would limit any judicial review of the constitutionality of
changes made to Act 77 by Act 12 to a period of 1 month (i.e., from March
27, 2020 to April 28, 2020). Taking Respondents’ argument to the extreme,
if the provisions noted in § 13 of Act 77 were to be amended again at some
19

S. APP. 000077

time in the future, Respondents’ interpretation of the 180-day window would
effectively preclude judicial review of any amendment to those provisions
because such review would not be within the 180-day initial window ending
on April 28, 2020. To deny voters and candidates a forum for addressing
violations to their constitutional rights would be an “absurd” and
“unreasonable” reading of the statute, as well as an unconstitutional
reading. 1 Pa.Cons.Stat. § 1922(1), (3). Accordingly, the Executive
Petitioners’ Preliminary Objection 2 should be overruled.
III.

The Executive Petitioners’ Preliminary Objection 3 should be
overruled because this Court has jurisdiction.
The Executive Petitioners’ Preliminary Objection 3 should be

overruled because the Commonwealth Court had jurisdiction. This is not an
action to resolve an election dispute. This is an action to challenge the
constitutionality of Act 77 and to enjoin unconstitutional actions taken
pursuant thereto. The Executive-Respondents attempt to characterize this
as an action to resolve an election dispute recognized under the Election
Code, to then assert that any such actions must be grounded in statutory
provisions for the resolution of election disputes.
There are no provisions in the election dispute statutes for addressing
unconstitutional election codes or laws. The Election Code provides no
relevant procedure applicable to this type of action and does not preclude
20

S. APP. 000078

this Court’s jurisdiction to hear constitutional challenges to laws and to
provide equitable relief. See William Penn School District v. Pa. Dep’t of
Ed., 170 A.2d 412, 418 (Pa. 2017) (“The idea that any legislature ... can
conclusively determine for the people and for the courts that what it enacts
in the form of law, or what it authorizes its agents to do, is consistent with
the fundamental law, is in opposition to the theory of our institutions.”
Smyth v. Ames, 169 U.S. 466, 527, 18 S.Ct. 418, 42 L.Ed. 819 (1898)).
Accordingly, this Court should overrule the Executive-Respondents’
Preliminary Objection 3.
IV.

Preliminary Objection 4 should be overruled because the
Executive-Respondents cannot meet their burden of
establishing a laches defense.
Preliminary Objection 4 should be overruled because the Executive-

Respondents cannot meet their burden of establishing a laches defense.
Inconsistently, the Executive-Respondents simultaneously claim that
Petitioners were not particularly harmed, such that they lacked standing,
but also that they should have brought this action sooner, before the
general election occurred and, consequently, before the harms to
Petitioners from the unconstitutional mail-in voting became a reality. Had
Petitioners brought an action sooner, the Executive-Respondents would
have no doubt instead contended that the harms the Petitioners claim are
21

S. APP. 000079

merely speculative. For the same reason that the objectors did not have
standing in In re Gen. Election 2014 Kauffman, 111 A.3d 785 (Pa. Commw.
Ct. 2015), Petitioners also lacked standing to assert their claims until after
they were harmed by the general election and the vote totals were
announced. Petitioners brought an action within mere days of being
harmed by an unconstitutional election as soon as they reasonably could
have hired counsel and identify the constitutional issues after they gained
standing to bring their claims. The Executive-Respondents’ standing
argument negates their argument that Petitioners sat on their rights for a
year.
Although “laches may bar a challenge to a statute based upon
procedural deficiencies in its enactment.” Stilp v. Hafer, 718 A.2d 290, 294
(Pa. 1998), in Stilp, this Court found that “Appellees concede[d] that laches
may not bar a constitutional challenge to the substance of a statute. . .” Id.
Indeed, the holding in Stilp stands in the face of the Executive
Respondent’s argument, holding that while the principle of laches may
apply when a constitutional challenge is on procedural grounds, it does not
apply with respect to the substance of a statute. Id. (citing Sprague v.
Casey, 520 Pa. 38, 550 A.2d 184 (1988) (Stating that “laches and prejudice

22

S. APP. 000080

can never be permitted to amend the Constitution.”)); see also Wilson v.
School Distr. of Philadelphia, 195 A. 90 (Pa. 1937).
Petitioners constitutional claim is purely substantive, and therefore
cannot be defeated by laches. Unlike Stilp where the plaintiffs argued that a
bill was not referred to the appropriate committee, and that the bill was not
considered for the requisite number of days, Stilp, 718 A.2d at fn. 1, here
Petitioners argue that the substance of Act 77 directly contravenes the
Pennsylvania Constitution. See Petition ¶¶ 65-87. Petitioners make no
challenge to the procedural mechanisms through which Act 77 was passed
– e.g., bicameralism and presentment – but rather, what is substantively
contained within the legislative vehicle that became Act 77. The
Pennsylvania General Assembly attempted to unconstitutionally expanded
absentee voting through Act 77, despite limitations to such expansion. Act
77 itself is not a constitutional amendment, which would be the type of
procedural laches challenge raised by the Executive-Respondents (and
would fail in any case). Such a patent and substantive violation of the
Constitution cannot be barred by the mere passage of time – “To so hold
would establish a dangerous precedent, the evil effect of which might reach
far beyond present expectations.” Wilson, 195 A. at 99. Amending the

23

S. APP. 000081

constitution to expand a protected and fundamental right is not a mere
procedural step, but rather one of substance.
The Executive-Respondents admitted that laches would not apply to
prospective relief pursued by petitioner. See Application, Exhibit A, p. 19, fn
4. Even assuming arguendo that laches can apply to retrospective relief of
a substantive constitutional challenge, the Executive-Respondents’
Preliminary Objection 4 should still be overruled. Laches can only bar relief
where “the complaining party is guilty of want of due diligence in failing to
promptly institute the action to the prejudice of another.” Sprague v. Casey,
550 A.2d 184, 187 (Pa. 1988). The two elements of laches are “(1) a delay
arising from Appellants’ failure to exercise due diligence and (2) prejudice
to the Appellees resulting from the delay.” Stilp v. Hafer, 718 A.2d 290, 293
(Pa. 1998) (citing Sprague, 550 A.2d at 187-88)
Sprague is on point. In Sprague, the petitioner, an attorney, brought
suit challenging the placing on a ballot of two judges. Id. Respondents
raised an objection based on laches because petitioner waited 6.5 months
from constructive notice that the judges would be on the ballot to bring suit.
In evaluating the facts that petitioner and respondents could have known
through exercise of “due diligence,” the court found that while petitioner
was an attorney, and was therefore charged with the knowledge of the
24

S. APP. 000082

constitution, the respondents (the Governor, Secretary, and other
Commonwealth officials) were also lawyers and similarly failed to apply for
timely relief. Id. at 188. This Court, in denying the laches defense,
reasoned that “[t]o find that petitioner was not duly diligent in pursuing his
claim would require this Court to ignore the fact that respondents failed to
ascertain the same facts and legal consequences and failed to diligently
pursue any possible action.” Id. To be clear, a citizen with an actionable
claim cannot just wait to file a grievance it is aware of. However, courts will
generally “hold that there is a heavy burden on the [respondent] to show
that there was a deliberate bypass of pre-election judicial relief.” Toney v.
White, 488 F.2d 310, 315 (5th Cir. 1973). The Executive-Respondents
have not met that burden here, and instead pretend that the burden is on
Petitioners to disprove laches.
There is not the slightest evidence or reason to believe that
Petitioners deliberately bypassed pre-election relief in the instant action,
and the Executive-Respondents have not pointed to any. Unlike in
Sprague, Petitioners here are not lawyers, they did not actually, nor could
they have known with reasonable diligence the arguments presented
before this Court in the instant action. With respect to the candidatePetitioners, none have participated in state legislature, and none have
25

S. APP. 000083

responsibilities with respect Pennsylvania Election Code or its
constitutionality.
Conversely, as in Sprague, Respondent Boockvar is an attorney, and
should be charged with knowledge of the Constitution, and particular
knowledge of the Election Code. In Sprague, the taxpayer’s more than six
month delay in bringing an action challenging the election did not constitute
laches thereby preventing the Commonwealth Court from hearing the
constitutional claims. 550 A.2d at 188. Additionally, Respondent
Pennsylvania General Assembly appears to have had knowledge of the
constitutional issues involved and began the process of amending the
constitution to allow no excuse mail-in ballots, which process appears to be
still ongoing. Petition ¶¶ 28-30.2
In short, the Executive-Respondents want this Court to charge
Petitioners, who had no specialized knowledge, with failure to institute an
action more promptly, while Respondents possessed extremely specialized
knowledge, and failed to take any corrective actions. Petitioners did not

2

If that process proceeds and the amendment is placed on the ballot, and
Act 77 is not declared unconstitutional, then Pennsylvania voters could
someday cast no excuse ballots by mail to decide whether to allow no
excuse voting by mail. In the meantime, all Pennsylvania voters were
disenfranchised of their right to vote on such an amendment prior to
institution of widespread no excuse voting by mail.
26

S. APP. 000084

hedge their bets, they simply brought an action within mere days of being
harmed by an unconstitutional election, as soon as they reasonably could
have hired counsel and identify the constitutional issues after they gained
standing to bring their claims. It could not have in any way served the
Petitioner’s interests in this matter to delay action for even one day. To
suggest they did so deliberately is ridiculous and unsupported.
In light of Respondents’ collective failures in enacting and enforcing
Act 77, they should have acted; that they did not do so puts the weight of
any necessary curative disenfranchisement squarely on their shoulders.
Laches is a shield to protect respondents from gamesmanship, it is not a
sword to use against harmed individuals to insulate Respondents’
unconstitutional actions.
Finally, Respondents reliance on In re Contest of Election for Off. of
City Treas. from Seventh Legis. Dist. (Wilkes-Barre City) of Luzerne
County, 162 A.2d 363, 365-66 (Pa. 1960) for the premise that voters should
not be disenfranchised because of “errors or wrongful acts of election
officers” is misplaced in this context. In re Contest, stands for the
proposition that disenfranchisement of voters is not necessary because
“[s]ociety's weapon against election frauds is the power to arrest those that
violate the Code.” Id. That however is not the case, where the code itself is
27

S. APP. 000085

illegally and unconstitutionally promulgated. Where, as is the case here, the
illegality is of an unconstitutional nature, intervention is necessary. Marks v.
Stinson, 19 F.3d 873, 889 (3d Cir. 1994) (If the district court finds a
constitutional violation, it will have authority to order a special election,
whether or not it is able to determine what the results would have been in
the absence of that violation.). Accordingly, this Court should determine
that the Respondents have not met their burden in establishing a laches
defense and overrule Preliminary Objection 4.
V.

The Executive-Respondents’ Preliminary Objection 5 should be
overruled because the Petition states a valid claim.
The Executive-Respondents’ Preliminary Objection 5 should be

overruled because the Petition states a valid claim.
A.

The Pennsylvania Constitution requires voting to take
place in person, subject only to specified absentee voting
exceptions.

Article I, § 4 and Article II, § 1 of the U.S. Constitution grant plenary
authority to state legislatures to enact laws that govern the conduct of
elections. Yet, while the “legislature may enact laws governing the conduct
of elections[,]... ‘no legislative enactment may contravene the requirements
of the Pennsylvania or United States Constitutions.’” Kauffman v. Osser,
271 A.2d 236, 240 (Pa. 1970) (Cohen, J. dissenting) (citing Winston v.
Moore, 91 A. 520 (1914), and quoting Shankey v. Staisey, 257 A.2d 897,
28

S. APP. 000086

898, cert denied 396 U.S. 1038 (1970)); see also, e.g., Smiley v. Holm, 285
U.S. 355, 369 (1932) (noting that state Legislatures are constrained by
restrictions imposed by state constitutions on their exercise of the
lawmaking power, even when enacting election laws pursuant to U.S.
Constitutional authority).
Article VII, § 1 of the Pennsylvania Constitution outlines the
authorities under which the Pennsylvania legislature enacts election laws.
This Court, in evaluating absentee voting legislation, first looks at the
Pennsylvania Constitution’s requirements on qualifying to be an elector in
Pennsylvania. “For the orderly exercise of the right resulting from these
qualifications … the Legislature must prescribe necessary regulations ….
But this duty and right inherently imply that such regulations are to be
subordinate to the right …. As a corollary of this, no constitutional
qualification of an elector can in the least be abridged, added to, or
altered by legislation or the pretence of legislation.” In re Lancaster City,
126 A. at 201 (emphases added).
The current Pennsylvania Constitution sets out the following
qualifications for voting: (1) 18 years of age or older; (2) citizen of the
United States for at least one month; (3) has residence in Pennsylvania for
the 90 days immediately preceding the election; and (4) has residence in
29

S. APP. 000087

the “election district where he or she shall offer to vote at least 60 days
immediately preceding the election ….” Pa. Const. Art. VII, § 1 (emphasis
added). As held by this Court in Chase, 41 Pa. at 418-19, and Lancaster
City, 126 A. at 200:
To “offer to vote” by ballot is to present one’s self, with proper
qualifications, at the time and place appointed, and to make
manual delivery of the ballot to the officers appointed by law to
receive it. The ballot cannot be sent by mail or express, nor can
it be cast outside of all Pennsylvania election districts and
certified into the county where the voter has his domicil.
The Pennsylvania Constitution has not been amended to change or
eliminate this qualification since Chase. Therefore, in-person voting
remains a requirement under law, unless otherwise exempt by the
Pennsylvania Constitution.
Article VII, § 14(a) provides the only such exceptions to the in propria
persona voting requirement of the Pennsylvania Constitution, in four
specific circumstances. It states:
(a) The Legislature shall, by general law, provide a
manner in which, and the time and place at which,
qualified electors who may, on the occurrence of
any election, be absent from the municipality of their
residence, because their duties, occupation or
business require them to be elsewhere or who, on
the occurrence of any election, are unable to attend
at their proper polling places because of illness or
physical disability or who will not attend a polling
place because of the observance of a religious
holiday or who cannot vote because of election day
30

S. APP. 000088

duties, in the case of a county employee, may vote,
and for the return and canvass of their votes in the
election district in which they respectively reside.
Pa. Const. Art. VII, § 14(a). Outside of those four situations, this Court’s
precedents do not provide a mechanism for the Legislature to allow for
expansion of absentee voting.
B.

Act 77 is illegal and void ab initio because it attempts to
expand the exceptions to in propria persona voting
requirements beyond what the Pennsylvania Constitution
currently allows.

“The Legislature can confer the right to vote only upon those
designated by the fundamental law, and subject to the limitations therein
fixed.” Lancaster City, 281 Pa. at 137 (citing McCafferty v. Guyer, 59 Pa.
109). Act 77 unconstitutionally expands the scope of absentee voting
permitted by the Pennsylvania Constitution to all voters.
Act 77, as amended, defines a “qualified mail-in elector” as “a
qualified elector.” 25 Pa.Stat. § 2602(z.6). A “qualified elector” is “any
person who shall possess all of the qualifications for voting now or
hereafter prescribed by the Constitution of this Commonwealth, or who,
being otherwise qualified by continued residence in his election district,
shall obtain such qualifications before the next ensuing election.” Id. §
2602(t). In short, Act 77 qualifies all electors as mail in electors.
Moreover, newly-created 25 Pa.Stat. § 3150.11 states:
31

S. APP. 000089

Qualified mail-in electors.
(a) General rule.-- A qualified mail-in elector shall be
entitled to vote by an official mail-in ballot in any
primary or election held in this Commonwealth in
the manner provided under this article.
(b) Construction.-- The term “qualified mail-in
elector” shall not be construed to include a person
not otherwise qualified as a qualified elector in
accordance with the definition in section 102(t).
Separately, absentee voting is defined in 25 Pa.Stat. § 3146.1, which
outlines a variety of categories of eligibility that are each consistent with
Article VII, § 14 of the Pennsylvania Constitution. See also 25 Pa.Stat. §
2602(w) (defining 14 types of qualified absentee electors).
Act 77 purported to create a distinction between the existent
“absentee voting” and “mail-in voting”. Taking an inartful twist such as
simply renaming the mechanism yields a distinction without a difference.
The General Assembly subverted the limitations in Article VII, § 14 by
creating a fictitious distinction between the pre-existing “absentee voting”
and the newly created “mail-in voting.” There is no distinction except that
mail-in voting is simply absentee voting without any of the inconvenient
conditions precedent that the Pennsylvania Constitution requires in order

32

S. APP. 000090

for someone to be permitted to cast a ballot without being physically
present at the polls on election day. 3
This Court in Chase v. Miller struck down unconstitutional military
absentee voting during the Civil War. Pennsylvania was one of the first
states to allow for absentee voting, originating with the Military Absentee
Act of 1813, which allowed “members of the state militia and those in the
service of the United States to vote as long as the company the soldier was
serving was more than two miles from his polling place on election day.”
John C. Fortier & Norman J. Ornstein, The Absentee Ballot and the Secret
Ballot: Challenges for Election Reform, 36 U. Mich. J.L. Reform 483, 497
(2003). At the time the Military Absentee Act was passed, the Pennsylvania
Constitution imposed no restrictions with regard to absentee voting.
However, in 1838, Pennsylvania amended its constitution to require voters
to “reside in the election district where he offers to vote, ten days
immediately preceding such election.” Id. (citing Pa. Const. of 1838, Art. III,
§ 1 (1838)). This created a conflict with the Military Absentee Act as re-

3. In an attempt to create the distinction between absentee and mail-in, the
legislature defined "qualified mail-in elector" is a “qualified elector who is not
a qualified absentee elector.” Again, the definitional distinction is nonyielding because there is no longer any functional purpose to applying for an
absentee ballot.
33

S. APP. 000091

enacted in 1839, which allowed for absentee voting, and the newly
amended Pennsylvania Constitution, which no longer did. Id.
In the 1861 election, Pennsylvania soldiers voted under the Military
Absentee Act 1839, and legal challenges came soon after. In 1862, this
Court decided Chase v. Miller, 41 Pa. 403. The Court analyzed the Military
Absentee Act of 1839 and its conflict with new (as of 1838) Pennsylvania
Constitution. This Court held that the act was unconstitutional because the
purpose of the 1838 amendment to the Pennsylvania Constitution was to
require in-person voting in the election district where a voter resided at
least 10 days before the election. Id. at 418-19.
The second section of [the 1838 amendment]
requires all popular elections to be by ballot. To
‘offer to vote’ by ballot, is to present oneself with
proper qualifications, at the time and place
appointed, and to make manual delivery of the
ballot to the officers appointed by law to receive it.
The ballot cannot be sent by mail or express,
nor can it be cast outside of all Pennsylvania
election districts and certified into the county
where the voter has his domicil. We cannot be
persuaded that the constitution ever contemplated
any such mode of voting, and we have abundant
reason for thinking that to permit it would break
down all the safeguards of honest suffrage. The
constitution meant, rather, that the voter, in propria
persona, should offer his vote in an appropriate
election district, in order that his neighbours might
be at hand to establish his right to vote if it were
challenged, or to challenge if it were doubtful.
***
34

S. APP. 000092

[Regarding the 1839 act,] [i]t is scarcely possible to
conceive of any provision and practice that could, at
so many points, offend the cherished policy of
Pennsylvania in respect to suffrage. Our
Constitution and laws treat the elective franchise as
a sacred trust…. All of which the [1839 act] reverses
and disregards, and opens a wide door for most
odious frauds, some of which have come under our
judicial cognizance.
Id. at 419-25 (emphasis added in bold). This Court also noted that the
Pennsylvania legislature carelessly avoided discussing the constitutionality
of the 1839 act before its passage; although, it noted that “instances of
even more careless legislation are not uncommon.” Id. at 417.
Following this Court’s invalidation of the 1839 Military Absentee
Voting Act, the legislature proposed amendment to the Pennsylvania
Constitution in 1864 to include for this first time a provision allowing for
absentee voting by active military personnel. See Josiah Henry Benton,
Voting in the Field: A Forgotten Chapter of the Civil War, at 199 (1915).
The legislature passed the amendment in two successive sessions, in
1863, and again on April 23, 1864, and the amendment was approved by
the citizens of Pennsylvania in August 1864. Prior to the August approval of
the amendment, on April 1, 1864, the Legislature was attempting to pass a
soldier’s voting bill that would have implemented absentee voting laws in
accordance with what the constitutional provision would have allowed if
35

S. APP. 000093

passed. The legislature sought the Attorney General’s opinion on the
constitutionality of passing this legislation before the constitutional
amendment was approved by the voters. The Attorney General opined that
it “would not be constitutional to pass a law before the Constitution was
amended so as to allow it.” Id. at 200.
From 1864 to 1949, only qualified electors engaged in actual military
service were permitted to vote by absentee ballot under the Pennsylvania
Constitution. Pa. Const. Art. VIII, § 6 (1864). However, this limitation did not
prevent the legislature from, again, attempting to pass unconstitutional
legislation to expand absentee voting. In 1924, this Court decided In re
Contested Election in Fifth Ward of Lancaster City, 126 A. 199, striking
down as unconstitutional Act May 22, 1923 (P.L. 309; Pa. St. Supp. 1924,
§9775a1, et seq.), an act providing civilians the right to vote by absentee
ballot. Quoting Chase v. Miller, 41 Pa. at 419, this Court reaffirmed the law
that “‘[t]o offer to vote’ by ballot, is to present one’s self with proper
qualifications, at the time and place appointed, and to make manual
delivery of the ballot to the officers appointed to receive it. The ballot
cannot be sent by mail or express, nor can it be cast outside of all
Pennsylvania election districts and certified into the county where the voter
has his domicil.” Lancaster City, 126 A. 200. This principle was affirmed
36

S. APP. 000094

between 1864 and 1924 in many other states with similar constitutional
provisions, both with regard to absentee voting by regular citizens as well
as by soldiers away from home. Id. (citing Twitchell v. Blodgett, 13 Mich.
127; Bourland v. Hildreth, 26 Cal. 161; Day v. Jones, 31 Cal. 261; Opinion
of the Judges, 30 Conn. 591; Opinion of the Judges, 37 Vt. 665; Opinion of
the Justices, 44 N.H. 633; In re Opinion of Justices [N.H.] 113 Atl. 293;
Clark v. Nash, 192 Ky. 594, 234 S.W. 1, 19 A.L.R. 304). The Court held the
civilian absentee ballot act unconstitutional because the Pennsylvania
Constitution still required electors to “offer to vote” in the district where they
reside, and that those eligible to “vote other than by personal presentation
of the ballot” were specifically named in the Constitution (i.e., active
military). Id. at 136-37. The Court relied on two primary legal principles in
its ruling:
[1] ‘In construing particular clauses of the
Constitution it is but reasonable to assume that in
inserting such provisions the convention
representing the people had before it similar
provisions in earlier Constitutions, not only in our
own state but in other states which it used as a
guide, and in adding to, or subtracting from, the
language of such other Constitutions the change
was made deliberately and was not merely
accidental.’ Com v. Snyder, 261 Pa. 57, 63, 104 Atl.
494, 495.
***
[2] The old principle that the expression of an intent
to include one class excludes another has full
37

S. APP. 000095

application here…. ‘The residence required by the
Constitution must be within the election district
where the elector attempts to vote; hence a law
giving to voters the right to cast their ballot at some
place other than the election district in which they
reside [is] unconstitutional.’
Id. The Court went further to note:
However laudable the purpose of the act of 1923, it
cannot be sustained. If it is deemed necessary that
such legislation be placed upon our statute books,
then an amendment to the Constitution must be
adopted permitting this to be done.
Id. at 138.
Because the Legislature failed to strictly comply with the
requirements of Article XI, the efforts to amend the Constitution to
improperly authorize universal mail-in voting are fatally defective and
inherently unconstitutional, having no lawful basis or effect. See, e.g.,
Kremer v. Grant, 529 Pa. 602, 613, 606 A.2d 433, 439 (1992) (“[T]he failure
to accomplish what is prescribed by Article XI infects the amendment
process with an incurable defect”); Sprague v. Cortes, 636 Pa. 542, 568,
145 A.3d 1136, 1153 (2016) (holding that matters concerning revisions of
the Pennsylvania Constitution require “the most rigid care” and demand
“[n]othing short of literal compliance with the specific measures set forth in
Article XI.”) (quoting Commonwealth ex rel. Schnader v. Beamish, 64 A.
615, 616-17 (Pa. 1932)). “However laudable the purpose of the act…, it
38

S. APP. 000096

cannot be sustained. If it is deemed necessary that such legislation be
placed upon our statute books, then an amendment to the Constitution
must be adopted permitting this to be done.” Lancaster City, 281 Pa. at
137-38.
C.

Article VII, §§ 1 and 4 of the Pennsylvania Constitution
have not materially changed since this Court struck down
legislation unconstitutionally expanding mail-in voting in
Lancaster City.

Article VII, §§ 1 and 4 of the Pennsylvania Constitution (previously
numbered as Article VIII, §§ 1 and 4) remain materially the same as they
were when this Court in Lancaster City struck down “Act May 22, 1923” (P.
L. 309; Pa. St. Supp. 1924, § 9775a1, et seq.) and invalidated the illegal
mail-in ballots cast thereunder. The current language of Article VII, § 4
remains identical to the language this Court interpreted in Lancaster City.
Article VII, §1 has been altered in three ways since the 1924 case: (1) the
voting age requirement was changed to 18, from 21; (2) the state residency
requirement was lowered from 1 year, to 90 days; and (3) Clause 3 of
Article VII, § VII was amended to allow a Pennsylvania resident who moves
to another County within 60 days of an election to vote in their previous
county of residence. These changes to Article VII, § 1 are not relevant to
the Court’s reasoning in Lancaster City. Pennsylvania Constitution’s
remains, for all relevant purposes, unchanged since 1924 with regard to the
39

S. APP. 000097

qualifications and requirements for voting in an election. Respondents’
actions in passing Act 77 without first amending the Constitution directly
contravene biding precedent and it is respectfully submitted that this Court
should invalidate the Act.
D.

Post-World-War-II and the modern absentee voting
provision in the Pennsylvania Constitution.

In 1949, the Pennsylvania Constitution was amended to also allow
bedridden or hospitalized war veterans the ability to vote absentee. Pa.
Const. Art. 8, § 18 (1949). In 1957, the legislature began the process of
amending the constitution to allow civilian absentee voting in instances
where unavoidable absence or physical disability prevented them from
voting in person. See Absentee Ballots Case, 423 Pa. 504, 508, 224 A.2d
197, 199-200 (1966). Because of the restrictions and safeguards under
Article XI, the 1957 amendment to the constitution did not go into effect
until 1960. Id. The constitutional amendment effectively expanded eligibility
for absentee voting to include only two categories of qualified electors: (1)
those who on election day would be absent from their municipality of
residence because of their duties, occupation, or business; and (2) those
who are unable to attend their proper polling place because of illness or
physical disability. Pa. Const. Art. 7, § 19 (1957).

40

S. APP. 000098

Issues arose immediately with the canvassing and computation of
ballots under the newly expanded absentee voting system, and any
challenges to absentee ballots that were rejected by the board of elections
resulted in the challenged ballots being placed with ballots that were not
challenged to be counted, making it impossible to correct if it was later
determined that the decision to reject the challenge was incorrect. See
Absentee Ballots Case, 423 Pa. 504, 509, 224 A.2d 197, 200. In response,
“the legislature added further amendments by the Act of August 13, 1963,
P.L. 707, 25 Pa.Stat. § 3146.1 et seq. (Supp. 1965)” to require the board of
elections to mark any ballot that was disputed as “challenged,” hold a
hearing on the objections, and the decision was opened up to review by the
court of common pleas in the county involved. Id. Until all challenges were
resolved, the board of elections was required to desist from canvassing and
computing all challenged ballots to avoid the possible mixing of valid and
invalid ballots. Id. In 1967 following the Constitutional Convention, the
Pennsylvania Constitution was reorganized and Article VII, § 19 was
renumbered to Article VII, § 14.
On November 5, 1985, the citizens of Pennsylvania approved another
amendment to Article VII, § 14 of the Pennsylvania Constitution, which
added religious observances to the list of permissible reasons for
41

S. APP. 000099

requesting an absentee ballot (the “1985 Amendment”). The 1985
Amendment began as HB 846, PN 1963, which would have amended the
Pennsylvania Election Code to provide absentee ballots for religious
holidays and for the delivery and mailing of ballots. See Pa. H. Leg. J. No.
88, 167th General Assembly, Session of 1983, at 1711 (Oct. 26, 1983)
(considering HB 846, PN 1963, entitled “An Act amending the
‘Pennsylvania Election Code,’ …further providing for absentee ballots for
religious holidays and for the delivery and mailing of ballots.”). However,
the legislative history recognized that because the Pennsylvania
Constitution specifically delineates who may receive an absentee ballot, a
constitutional amendment was necessary to implement these changes. HB
846, PN 1963 was thus changed from a statute to a proposed amendment
to the Pennsylvania Constitution. Id. (statement of Mr. Itkin) (“[T]his
amendment is offered to alleviate a possible problem with respect to the
legislation. The bill would originally amend the Election Code to [expand
absentee balloting] …. Because it appears that the Constitution talks about
who may receive an absentee ballot, we felt it might be better in changing
the bill from a statute to a proposed amendment to the Pennsylvania
Constitution.”).

42

S. APP. 000100

On November 4, 1997, the citizens of Pennsylvania approved another
amendment to Article VII, § 14 of the Pennsylvania Constitution, which
expanded the ability to vote by absentee ballot to qualified voters that were
outside of their municipality of residence on election day; where previously
absentee voting had been limited to those outside of their county of
residence (the “1997 Amendment”). See Pa. H. Leg. J. No. 31, 180th
General Assembly, Session of 1996 (May 13, 1996) The legislative history
of the 1997 Amendments recognized the long-known concept that there
existed only two forms of voting: (1) in-person, and (2) absentee voting and
that the 1997 Amendment would not change the status quo; namely that
“people who do not work outside the municipality [or county] or people who
are ill and who it is a great difficulty for them to vote but it is not impossible
for them to vote, so they do not fit in the current loophole for people who
are too ill to vote but for them it is a great difficulty to vote, they cannot vote
under [the 1997 Amendment].” Id. at 841 (statement of Mr. Cohen).
E.

The Executive-Respondents’ attempts to distinguish or
undermine this Court’s precedents are unavailing.

The Executive-Respondents’ attempts to distinguish or undermine
this Court’s precedents are unavailing. The Executive-Respondents refer to
this Court’s precedents interpreting provisions of the Pennsylvania
Constitution, which remain unchanged since those cases were decided, as
43

S. APP. 000101

“outdated” and “not reflected in other current, constitutional voting practices
provided by the Election Code.” See Application, Exhibit A, pp. 22-23.
Respondents argue that absentee balloting is more acceptable and less
prone to fraud in modern times than it was in the past. They claim that this
Court’s precedents “based their holdings on a fear of absentee voting that
no longer exists, and is not reflected in other current, constitutional voting
practices provided for by the Election Code.” See Id.
On the contrary, concerns regarding absentee voting persist to this
day. For example, in a New York Times article entitled “Error and Fraud at
Issue as Absentee Voting Rises,” Oct. 6, 2012, the author noted that, in the
absentee system, “fraud and coercion have been documented to be real
and legitimate concerns” because fraud is easier via mail. See Exhibit A
attached hereto (also noting issues with “granny farming,” issues with
buying and selling mail-in votes, and other serious issues with mail-in
votes).
The Executive-Respondents’ argument that Chase and Lancaster
City are “outdated” and “inapplicable” is unintelligible and stand in the face
of the foundational principles of stare decisis. See Application, Exhibit A, p
22. As a preliminary matter, the Executive-Respondents correctly state that
the holdings in Chase and Lancaster City interpret the language “offer to
44

S. APP. 000102

vote” to require in person voting. Because the language “offer to vote”
conspicuously remains in the Pennsylvania Constitution, the ExecutiveRespondents resign to arguing that the very meaning of that language, as
interpreted by this Court, has somehow changed. In support of such an
argument, they cite to vague historical context, and a shift in modern
realities. See Application, Exhibit A, pp. 23-24.
The Executive-Respondents completely ignore the doctrine of stare
decisis, well settled in this Court’s precedents, especially in the context of
election law. This Court has held that "for purposes of stability and
predictability that are essential to the rule of law ... the forceful inclination of
courts should favor adherence to the general rule of abiding by that which
has been settled." Shambach v. Bickhart, 845 A. 2d 793, 807 (Pa. 2004) (J.
Saylor concurring). Certainty and stability in the law is crucial, and unless
blindly following stare decisis perpetuates error, precedent must be
followed. See Stilp v. Com., 905 A. 2d 918, 967 (Pa. 2006). Holdings,
"once made and followed, should never be altered upon the changed views
of new personnel of the court." In re Burtt's Estate, 44 A.2d 670, 677 (Pa.
1945) (cited by In re Paulmier, 937 A. 2d 364 (Pa. 2007)). “Stare decisis
simply declares that, for the sake of certainty, a conclusion reached in one
case should be applied to those which follow, if the facts are substantially
45

S. APP. 000103

the same, even though the parties may be different.” Heisler v. Thomas
Colliery Co., 118 A. 394, 395 (Pa. 1922).
The material facts of this case are not only substantially similar, but
they are also identical - the terms “offer to vote” remains identical in today’s
Pennsylvania Constitution to the Pennsylvania Constitution back in the
times of Chase and Lancaster City. For the sake of consistency of law, the
meaning must remain the same. This Court should consistently find that the
term requires voting to be in person, absent some contravening language.
Article 7, § 14 provides that contravening language, and does so
specifically because of the limitation set by § 1. The ExecutiveRespondents cite no special justification that would justify injecting
instability into settled law. Departure from the stringent principles of stare
decisis requires special justification, and the Executive-Respondents have
not identified a single one. See Arizona v. Rumsey, 467 U. S. 203, 212
(1984) ("Any departure from the doctrine of stare decisis demands special
justification …").
Indeed, Chase and Lancaster City have been consistently upheld
without any indication of perpetuating legal error. The idea that a change in
times is reason to reinterpret language is risible, precisely because stare
decisis, as a principle, was established to provide predictability and stability
46

S. APP. 000104

through time. The Executive-Respondents fail to cite a single case for their
historically relative definitional approach. The Executive-Respondents
provide "little basis here for invoking the rare exception to stare decisis to
disturb a long-settled matter." See Shambach, 845 A. 2d at 807.
Moreover, consistent amendments to Article VII demonstrate a
necessity to provide specific constitutional authority for each expansion of
methods of voting beyond in propria persona voting, because of the strict
requirement for in person voting. The Executive-Respondents’
interpretation of the relevant constitutional provisions, if correct, would have
obviated the need for many such prior Pennsylvania Constitutional
amendments. Indeed, absent such restriction, amendments allowing for
Military voting and absentee voting under Article VII, § 14 would be
redundant.
Yet, Executive-Respondents point to the Court’s propensity to allow
some latitude in the prescriptive language in some of these amendments
as evidence that the language is entirely permissive. Specifically, the
Executive-Respondents cite to the fact that spouses of military members
were allowed to vote when the amendment only allowed for military
members, and the legislature interpreting “duties, occupation or business”
in Article VII, § 14 as inclusive of “teaching or education, vacations,
47

S. APP. 000105

sabbatical leaves, and all other absences associated with the elector’s
duties, occupation or business, and also include an elector’s spouse who
accompanies the elector.” Application, Exhibit A, pp. 24-25 (quoting 25
Pa.Stat. § 2602). Citing these minor variances – well within the interpretive
confines of both amendments – the Executive-Respondents assert that
“five decades of allowing absentee voting beyond the ‘specifically named’
categories of Article VII, § 14, suggests it would no longer be appropriate to
follow Lancaster City by applying the maxim expressio unius est exclusio
alterius.” Id. at p. 26.
Put simply, the Executive-Respondents argue that because some
legislation does not adhere to the strictest interpretation of Article VII, § 14,
the Pennsylvania General Assembly has free reign to interpret § 14 out of
existence, as Act 77 does. The issue here, is an Act that classifies virtually
everyone as an absentee voter, not a mere justifiable interpretation of
some enumerated exception. The Court should resist the invitation to
interpret § 14 out of existence.
Moreover, Respondents, reliance on Kauffman v. Osser, 271 A.2d
236 (Pa. 1970) is misguided at best. In Kauffman, the Plaintiffs brought a
challenge to a law that allowed for absentee voting in situations where
electors were on vacation on election day. Respondents state that “the
48

S. APP. 000106

legislature believed these expansions to be constitutional, even
contemporaneously with the finalization of the new constitution. And the
Supreme Court rejected a challenge to some of these expansions when
they were still young, albeit on standing grounds. Kauffman v. Osser, 441
Pa. 150 (1970).” First, not only did this Court base its holding in Kauffman
on lack of standing, but also this Court did not analyze any part of the
statute’s constitutionality, not even in a single sentence. No honest reading
of the case would render a holding of constitutionality.
The Executive-Respondents’ desperate reliance on Martin v.
Haggerty, 548 A.2d 371, 374-75 (Pa. Commw. Ct. 1988) and Ray v.
Commonwealth, 276 A.2d 509 (Pa. 1971) fare no better. The ExecutiveRespondents draw the following conclusion from these cases: “More recent
decisions suggest the legislature has broad powers to decide who may
vote by absentee ballot.” First, Martin was decided by the Commonwealth
Court, applying Ray. Therefore, only Ray is authoritative here. Second, and
regardless, both decisions revolve around the definition of “qualified
elector” specifically excluding incarcerated individuals. This Court found
that the “Legislature has the power to define ‘qualified electors' in terms of
age and residency requirements, so it also has power to except persons
‘confined in a penal institution’ from the class of ‘qualified electors.’” Ray,
49

S. APP. 000107

276 A.2d at 510. The power of the legislature to limit who can register to
vote – i.e., a qualified elector – is not the subject of the present litigation.
But the Executive-Respondents argue that “if the 1968 Constitution sets a
floor for qualified electors in Article VII, § 1, then by the same logic it sets a
floor for absentee voters in Article VII, § 14.” Application, Exhibit A, p. 27.
The incongruity of the comparison is outstanding. Article VII, § 1 clearly
states that the limitations are “subject, however, to such laws requiring and
regulating the registration of electors as the General Assembly may enact,”
providing discretion to the General Assembly to enact laws as they see fit.
No similar discretionary language is present in Article VII, § 14. The
comparison of different Sections, containing wholly different language is not
instructive.
The Executive-Respondents cite no authority or interpretive principle
for their argument that the change of the word from “may” in totally distinct
earlier absentee provisions to “shall” in Article VII, § 14 “reflects the modern
Pennsylvania Constitution’s grant of general discretion to set qualifications
for absentee voting…” Application, Exhibit A, p. 28. How the ExecutiveRespondents can glean that an affirmative “shall” creates more discretion
on the legislature is beyond comprehension.

50

S. APP. 000108

Finally, in the three single lines dedicated to the Constitutional
amendment that would have prevented this entire litigation if
constitutionally passed, the Executive-Respondents argue that “[i]f
anything, the General Assembly recognized that, as no challenges had
been made to Act 77 within the prescribed time frame, it was likely
constitutional and no amendment was necessary.” Application, Exhibit A, p.
28. Such conclusion is flawed both in fact and in logic. As to the former,
because the legislature did not “abandon the quest” of amending the
Constitution, the amendment passed and is slated to be voted on by
electors, pursuant to Constitutional mandate, in November of 2021. As to
the latter, there is no implication of a lack of constitutionality in the mere
lack of a challenge. The way to change the Pennsylvania Constitution is
through amendment, not reinterpretation contradictory to the original intent
and meaning of its terms. Accordingly, the Executive-Respondents’
Preliminary Objection 5 should be overruled.
VI.

The standards for granting a preliminary and permanent
injunctive relief are met in this case.
The standard for granting a preliminary and permanent injunction are

met in this case.

51

S. APP. 000109

A.

Standard for Granting a Preliminary Injunction.

A preliminary injunction’s purpose is to preserve the status quo and to
prevent imminent and irreparable harm that might occur before the merits
of a case can be heard and determined. Ambrogi v. Reber, 932 A.2d 969,
976 (Pa. Super. 2007), Walter v. Stacy, 837 A.2d 1205, 1209 (Pa. Super.
2003). Pennsylvania Law is well settled regarding the prerequisites that
must be established by the movant in order to obtain a Preliminary
Injunction. “There are six ‘essential prerequisites’ that a party must
establish prior to obtaining preliminary injunctive relief. The party must
show: 1) ‘that the injunction is necessary to prevent immediate and
irreparable harm that cannot be adequately compensated by damages’; 2)
‘that greater injury would result from refusing an injunction than from
granting it, and, concomitantly, that issuance of an injunction will not
substantially harm other interested parties in the proceedings’; 3) ‘that a
preliminary injunction will properly restore the parties to their status as it
existed immediately prior to the alleged wrongful conduct’; 4) ‘that the
activity it seeks to restrain is actionable, that its right to relief is clear, and
that the wrong is manifest, or, in other words, must show that it is likely to
prevail on the merits’; 5) ‘that the injunction it seeks is reasonably suited to
abate the offending activity’; and, 6) ‘that a preliminary injunction will not
52

S. APP. 000110

adversely affect the public interest.’ Warehime v. Warehime, 860 A.2d 41,
46-47 (Pa. 2004) (citing, Summit Towne Centre. Inc, v. Shoe Show of
Rocky Mount Inc., 828 A.2d 995, 1002 (Pa. 2003)).
B.

An Injunction Is Necessary to Prevent Immediate and
Irreparable Harm to the Petitioners That Cannot Be
Otherwise Adequately Compensated by Damages.

The injunction in this case is necessary to prevent Petitioners from
suffering the permanent, irreparable harm of an illegal election conducted
pursuant to unconstitutional laws. As an initial matter, this Court has
consistently held that, “[w]hen the Legislature declares certain conduct to
be unlawful it is tantamount in law to calling it injurious to the public. For
one to continue such unlawful conduct constitutes irreparable injury.”
Pennsylvania Public Utility Commission v. Israel, 52 A.2d 317, 321 (Pa.
1947). An illegal action, should it be allowed to continue, is an irreparable
harm. Milk Marketing Board v. United Dairy Farmers Co–op Association,
299 A.2d 191 (Pa. 1973) (plurality) (affirming issuance of a preliminary
injunction and finding irreparable harm because Petitioners violated state
statute by selling milk below the minimum prices mandated by state law);
Pennsylvania Public Utility Commission v. Israel, 52 A.2d 317 (Pa. 1947)
(affirming issuance of a preliminary injunction on the basis that Petitioners

53

S. APP. 000111

violated a state statute requiring taxicabs to have a certificate of public
convenience).
The same kind of irreparable harm, as a matter of law, has been
found in instances where legislative acts were preempted or not in
accordance with a higher authority. Firearm Owners Against Crime v.
Lower Merion Twp., 151 A.3d 1172, 1180 (Pa. Commw. Ct. 2016). In
Firearm, the court found that a town ordinance that violated state statutory
law constituted irreparable injury. “[R]egardless of the persuasiveness of
the Township's argument, [] binding case law mandates that the Ordinance
is preempted by § 6120(a) of the UFA and, therefore, the Township's
enactment of the same violates the UFA. Thus, issuance of a preliminary
injunction is necessary to prevent immediate and irreparable harm, i.e., the
continued statutory violation.” Id. Accordingly, the per se irreparable harm
as a matter of law standard should be applied in situations where
legislation is in violation of the Pennsylvania Constitution.
Here the General Assembly enacted Act 77 in violation of the
Pennsylvania Constitution. Should this Court find that it is at least likely that
a violation of the Pennsylvania Constitution occurred, then the inquiry
should end there – immediate and irreparable harm should be found as a
matter of law. In the alternative, should the Court not find irreparable harm
54

S. APP. 000112

as a matter of law, irreparable harm should be found because the
November 3, 2020, General Election was conducted pursuant to
unconstitutional legislation; a failure by the Court to enjoin early certification
of those derivatively unconstitutional results (which to this point include
mail-in ballots), would strip the Court of the ability to redress the harm
suffered by Petitioners and all Pennsylvanians with respect to the
presidential election. Once elections are certified and electors are
appointed and cast their votes, the Court's ability to undo such certification
and provide redressability for the November 3, 2020, presidential General
Election becomes impossible.
For presidential and vice-presidential elections, states must choose
their electors “at least six days before the time fixed for the meeting of
electors” in order to meet the federal “safe harbor” deadline. 3 U.S.C. § 5.
For the 2020 General Election, electors must be chosen by December 8,
2020, in order to ensure that they are able to meet and vote at the time
prescribed by law – December 14, 2020, at 12:00 PM – and have that vote
counted in Congress. Once such votes are cast by the presidential and
vice-presidential electors, this Court would lose the ability to provide relief
to Petitioners, and Petitioners would have no other forum in which to have
their claims redressed.
55

S. APP. 000113

Although no similar deadline exists with regard to United States
House of Representatives election , it is unlikely that the Court would be
able to provide relief once the returns of these races have been certified
and the Governor has transmitted those returns to the Speaker of the
House of Representatives pursuant to 25 Pa.Stat. § 3163. Similarly, with
respect to General Assembly elections, there is no certification deadline,
however, pursuant to the Pennsylvania Constitution the new General
Assembly is seated on December 1st after which, relief would be
impracticable. Pa. Const. Art. II, Sec, 2.
The failure of an election to choose electors, must be resolved
subsequently by the legislature prior to the appointment of electors “in such
a manner as the legislature of such State may direct.” 3 U.S.C. § 2. Thus,
the determination of a failure in the election must be resolved prior to the
Secretary exercising her authority to certify the elections, prior to the
Governor issuing commissions for the Electors, and prior to the Electors
submitting their votes for the Electoral College. Without continuing the
temporary injunction, therefore, relief will likely become impossible, and the
harm would be rendered irreparable. Finally, should this litigation, and the
subsequent appellate process, continue past December 14th – the date

56

S. APP. 000114

that the Electors cast their votes– the Court would have no power in law or
in equity to undue the resulting wrongs.
C.

Greater injury would result from allowing certification of
election results conducted pursuant to an unconstitutional
mail-in voting scheme than from prohibiting it.

The second prerequisite to the issuance of a preliminary injunction is
that the party requesting the injunction must show that greater injury would
result from refusing an injunction than from granting it and concomitantly,
that issuance of an injunction will not substantially harm other interested
parties in the proceedings. The York Grp., Inc. v. Yorktowne Caskets, Inc.,
924 A.2d 1234, 1244 (Pa. Super. 2007). This requirement is satisfied here
as well.
The injunction requested is temporary and will only prevent the
Secretary and Governor from performing certain ministerial actions far in
advance of the statutory deadlines set in Federal Law (December 8th for
certification of electors, December 14th for casting of electoral votes) or the
Pennsylvania Constitution (December 1st for General Assembly to take
office). Should the Court ultimately find for the Respondents, the only harm
suffered by the Respondents is a slight delay of certification of results, a
largely procedural step that benefits Respondents in no way if done early.
This Court may take judicial notice that in the 2016 Presidential Election,
57

S. APP. 000115

the results were certified, and the Certificates of Ascertainment were
signed on December 12, 2016. See Department of State Certifies
Presidential Election Results, available at
https://www.media.pa.gov/pages/State-details.aspx?newsid=207
(December 12, 2016). Conversely, if the limited injunction is not
maintained, Respondents harm becomes irreparable, and Petitioners,
along with all Pennsylvanians, must permanently suffer the fruits of an
unconstitutional election and having been disenfranchised of their right to
vote on adoption of a constitutional amendment before widespread no
excuse mail-in voting was instituted. Juxtaposing the harms, it becomes
clear that the lack of injury from a short delay to a procedural mechanism
for the sake of preserving any form of redressability for Petitioners is a
favorable outcome for all parties involved.
D.

Granting the Preliminary Injunction Will Maintain the Status
Quo and Prevent Respondents from Inflicting Permanent
Damage Through Their Illegal Conduct.

The sole object of a preliminary injunction is to preserve the subject
of the controversy in the condition in which it is when the order is made, it is
not to subvert, but to maintain the existing status until the merits of the
controversy can be fully heard and determined. Chipman ex rel. Chipman
v. Avon Grove School Dist., 841 A.2d 1098, 1101 (Pa. Commw. Ct. 2004.)
58

S. APP. 000116

(citing Little Britain Township Appeal, 651 A.2d 606 (Pa. Commw. Ct.
1994)). “The status quo to be maintained by a preliminary injunction is the
last actual, peaceable and lawful noncontested status which preceded the
pending controversy.” Valley Forge Historical Soc’y v. Washington
Memorial Chapel, 426 A.2d 1123, 1129 (Pa. 1981).
To be clear, the harm suffered by Petitioners is not simply that of
being subject to unconstitutional legislation, though that is a cognizable
harm under the law. The realized harm is the resulting wrongs of
conducting the November 3, 2020, General Election pursuant to
unconstitutional legislation. Prior to the November 3, 2020, General
Election taking place, there were no results to be certified. As it stands
now, it is not clear which steps in the process of certification of an election
have and have not been completed, but clearly the electors have not yet
voted. Thus, a narrow window exists in which a properly tailored injunction
issued by this Court will preserve the status quo as it existed prior to the
wrongful conduct at issue. Such an injunction would preserve Petitioners'
rights and allow the court adequate time to decide the presented questions
of law, while retaining the ability to meaningfully redress the harm.
Moreover, as mentioned above, such an injunction would in no way
prejudice Respondents. If injunctive relief is not granted, and a final hearing
59

S. APP. 000117

on the merits is not immediately scheduled, Petitioners will be robbed of
their ability to see their harms redressed.
The requested injunctive relief in this matter is appropriate because it
will properly restore the parties to their status as it existed immediately prior
to the alleged wrongful conduct. Consequently, the third prerequisite
necessary to the grant of preliminary injunctive relief has been satisfied.
E.

Act 77 is a Clear Violation of the Constitution and the
Pennsylvania Supreme Court has Previously Struck Down
Similar Laws and Set Aside Illegal Mail-in Ballots, Thus
Petitioners are Likely to Prevail on the Merits.

The fourth prerequisite to the issuance of a preliminary injunction is
that the Petitioners must show that the activity they seek to restrain is
actionable, that their right to relief is clear, and that the wrong is manifest,
or, in other words, must show that they are likely to prevail on the merits.
To establish a, “clear right to relief,” the party seeking an injunction
need not prove the merits of the underlying claim, but need only show that
substantial legal questions must be resolved to determine the rights of the
respective parties. Walter v. Stacy, 837 A.2d 1205, 1209 (Pa. Super. 2003)
(quoting, Chmura v. Deegan, 581 A.2d 592, 593 (Pa. Super. 1990)); see
also, Ambrogi v. Reber, 932 A.2d 969, 976 (Pa. Super. 2007) (citing
Walter, 837 A.2d at 1209 (“[T]he party seeking an injunction is not required
to prove that he will prevail on his theory of liability, but only that there are
60

S. APP. 000118

substantial legal questions that the trial court must resolve to determine the
rights of the parties.”)). For the reasons explained in Section V of the
Argument above, Petitioners here have a clear right to relief.
F.

An Injunction Against Respondents is Reasonably
Necessary to Prevent Irreparable Harm.

The fifth prerequisite necessary for granting preliminary injunctive
relief is that the moving party must show that the injunction it seeks is
reasonably necessary to prevent irreparable harm. Pennsylvania courts
sitting in equity have jurisdiction to prevent the continuance of acts
prejudicial to the interest of individual rights, including the authority to
enjoin the wrongful acts where monetary damages are inadequate. The
York Grp., Inc., 924 A.2d, at 1244 (Pa. Super. 2007).
The injunction Petitioners seek is reasonably suited to abate the
offending activity. A preliminary injunction at this point would merely
prevent the fruits of an unconstitutional election from becoming “final,”
thereby preserving Petitioners’ ability to continue to seek permanent relief
from this Court. The remedy requested in the instant motion is narrowly
tailored to prevent immediate and irreparable harm to Petitioners that has
been caused by an election perpetrated pursuant to an unconstitutional
election code.

61

S. APP. 000119

Petitioners, and the entire Pennsylvania electorate, were subject to
an unconstitutional election code leading up to and through the November
3, 2020, General Election. Indeed, Petitioners continue to remain subject to
such unconstitutional laws. Act 77 was enacted without regard for the
Pennsylvania Constitution, nor for the protections granted therein. A brief
delay in the certification of the election results that in no way harms
Respondents is reasonably necessary to provide this Court with time to
review and make a decision on the merits.
If preliminary injunctive relief is maintained, the Petitioners’ remedy
will be preserved. The preliminary injunction requested would not last
longer than necessary under the circumstance, but only until the rights of
the parties could be determined by a full and final hearing on the merits.
The grant of the requested preliminary injunctive relief is reasonably suited
to abate the offending activity until the matter can be fully adjudicated. For
the reasons as set forth herein, the fifth prerequisite necessary for granting
preliminary injunctive relief has been satisfied by Petitioners.
VII.

The Public Interest Will be Served by Preventing the Premature
Certification of Election Results that Includes Illegal Mail-in
Ballots.
The sixth and final prerequisite that must be satisfied before a

preliminary injunction may be ordered is that the party seeking an injunction
62

S. APP. 000120

must show that the injunction will not adversely affect the public interest.
The Respondents’ actions constitute an attempt to deny the electorate the
protections afforded to it by the Pennsylvania Constitution. Respondents’
actions represent a concerted effort to subvert the Pennsylvania
Constitution, especially in light of their tacit acknowledgement that the
Constitution required amendment, their attempt to make such amendment,
and their abandonment of such efforts.
“Among the factors that a court must weigh in deciding whether or not
to grant a preliminary injunction is the effect such a preliminary injunction
would have on the public interest.” Philadelphia v. District Council 33.
AFSCME, 528 Pa. 355, 364, 598 A.2d 256, 260 (Pa. 1991). See also,
Allegheny Anesthesiology Associates v. Allegheny General Hosp., 826
A.2d 886, 893 (Pa. Super. 2003) (harm to the public is an additional
consideration in the issuance or denial of a preliminary injunction).
In the instant matter, any concerns of harm from brief delay are
outweighed by the harm of proceeding with all of the certification steps and
forever precluding meaningful review by this Court. This Court could reach
a final decision on the merits in this case very quickly. The public interest
will be served well by granting injunctive relief because there is no greater
public interest than that of an electorate exercising its right to a free, fair,
63

S. APP. 000121

and lawful election. That public interest will not be harmed by a temporary
delay in certification while the Court decides the questions of law raised by
the instant action. The public interest strongly favors issuance of injunctive
relief.
CONCLUSION
For the foregoing reasons, this Court should maintain the preliminary
injunctive relief provided by the Commonwealth Court until this Court can
make a final decision on the merits, and upon such final decision, make
that relief permanent and strike down Act 77 as unconstitutional.
Respectfully submitted,
OGC Law, LLC
/s/Gregory H. Teufel
Gregory H. Teufel, Esq.
Attorney for Petitioners

64

S. APP. 000122

CERTIFICATE OF COMPLIANCE
I certify that this filing complies with the provisions of the Public
Access Policy of the Unified Judicial System of Pennsylvania: Case
Records of the Appellate and Trial Courts that require filing confidential
information and documents differently than non-confidential information and
documents.
Date: November 27, 2020

/s/Gregory H. Teufel
Gregory H. Teufel

S. APP. 000123

CERTIFICATION OF COMPLIANCE WITH WORD COUNT LIMIT
I certify that the RESPONSE TO APPLICATION FOR THE COURT
TO EXERCISE EXTRAORDINARY JURISDICTION is 13,981 words as
measured in accordance with Pennsylvania Rule of Appellate Procedure
2135.
Dated: November 27, 2020

/s/Gregory H. Teufel
Gregory H. Teufel

S. APP. 000124

CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the foregoing was
served upon all counsel of record on November 27, 2020 by this Court’s
electronic filing system.
/s/Gregory H. Teufel
Gregory H. Teufel

S. APP. 000125

